HHS/OIG, Audit -"Review of Hemophilia Treatment Centers' Disposition of Program Income and Patient Choice for Factor Provider for Calendar Year 2000,"(A-03-01-00350)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Hemophilia Treatment Centers' Disposition of Program Income and Patient Choice for Factor Provider for
Calendar Year 2000," (A-03-01-00350)
June 17, 2003
Complete
Text of Report is available in PDF format (440 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Resources and Services Administration (HRSA) requested the Office of Inspector General to review Hemophilia
Treatment Centers' (HTCs) disposition of program income and their patient choice policies during calendar year 2000.  The
HTCs earn program income when they purchase blood-clotting factor and related drugs at discount prices pursuant to participation
in the 340B program and resell them to HTC patients.
We found that the HTCs generally used program income for patient care and related activities, and had choice policies
in place that allowed patients to obtain the blood clotting factor they needed from providers of their choice.  At
one of the six HTCs we visited, however, we found:  (1) inappropriate use of program income; and (2) inappropriate
Medicaid billing practices resulting in overbilling of $613,000.  We recommended that HRSA develop program guidelines,
improve monitoring of HTCs, and work with the Centers for Medicare and Medicaid Services to ensure that the overpayment
of $613,000 is refunded to the Medicaid program.  The HRSA generally agreed with our findings and recommendations.